U.S. DEPARTMENT OF COMMERCE
          Office of Inspector General




                 U. S. Census Bureau

   Census Has Improved Accountability for
    Laptops and Other Personal Property,
  But Additional Improvements Are Needed


     Final Audit Report No. IG-18387-1 (OA)/September 2007




                    PUBLIC RELEASE



                                           Office of Audits
                                                       CONTENTS

SUMMARY...................................................................................................................... i

INTRODUCTION ............................................................................................................1

OBJECTIVES, SCOPE, AND METHODOLOGY .........................................................4

FINDINGS AND RECOMMENDATIONS ....................................................................6

Census Has More to Do to Improve and Strengthen Accountable
Property Internal Controls ...............................................................................................6

          A. Weaknesses in Personal Property Management..............................................6

          B. Corrective Actions Already Implemented or Planned by Census ..................7

          C. Additional Improvements Needed to Strengthen Internal Controls ..............8

          D. Recommendations ………………………………………………………….12

          E. Census Response …………………………………………………...………12

          F. OIG Comments ……………………………………………………………..12

APPENDIX I: Census Bureau’s Complete Response to Draft Audit Report
U.S. Department of Commerce                                       Audit Report No. IG-18387-0001
Office of Inspector General                                                       September 2007

                                         SUMMARY

On September 14, 2006, the Secretary of                                Quick Facts
Commerce requested the Inspector General to
determine the extent of problems in                      •   Census headquarters is located in
protecting sensitive personal information at                 Suitland, Maryland, with 12 regional
the Census Bureau and assess the bureau’s                    offices around the country, and a
property management policies and practices.                  processing center in Jeffersonville,
This report details the results of our audit of              Indiana.
the bureau’s property policies and practices. A
separate report issued by the Office of                  •   The Administrative and Customer
Systems Evaluation details the results of its                Services Division (ACSD) is
review of the bureau’s efforts to improve                    responsible for Census’s Automated
information technology security and protect                  Property Management System
sensitive personal information.                              (APMS) and physical inventories.

On September 21, 2006, following both a               • As of March 8, 2007, Census owned
Freedom of Information Act and a                          about 42,000 pieces of accountable
congressional request regarding the                       property (such as laptop computers,
compromise of sensitive personal information              personal computers, photocopy
and lost laptops, the Department issued a                 machines, and video cameras) valued
press release stating that 1,138 laptops had              at approximately $188 million.
been lost Department-wide. Of that number,
672 belonged to Census. On September 22, 2006, Commerce received a second
congressional request relating to information on missing laptop computers, thumb drives,
handheld devices, and computer data disks since January 2001.

Weaknesses in Personal Property Management

From January 2001 until September
2006, the time period for which the                Weaknesses in Census Bureau Personal
bureau reported 672                                      Property Management
lost/missing/stolen laptops, personal     Inadequate Attention to Property Management
property management at Census             — Inventory results were not consolidated and analyzed
suffered from a number of                 — Census does not have a full-time property management officer
weaknesses, including inadequate
attention to property management,         Inactive Property Boards of Review
                                          — Property review boards were discontinued in the 1990s reportedly
inactive property boards of review,       because it wasn’t clear how they should be implemented
and inadequate procedures for
recovery of laptops. (See page 6.)        Inadequate Procedures for Recovery of Laptops
During our review, we were told by        — Census officials stated that the recovery of lost/missing/stolen
various Census officials that prior to    laptops had not been a priority
                                          — Until media reports raised concerns in 2006, recovery procedures
2006 the recovery of lost/stolen          for regional offices had not been updated since June 2000
laptops and other accountable
property had not been a priority.




                                              i
U.S. Department of Commerce                                        Audit Report No. IG-18387-0001
Office of Inspector General                                                        September 2007

Corrective actions already implemented or planned

We found that Census has taken and                    Corrective Actions to Address Weaknesses
planned a number of actions to address
                                                Increased Attention to Property Management
weaknesses in personal property                 -- Emphasis on personal property management in performance
management. (See page 7.) In an                    plans
October 3, 2006 memorandum, the                 -- Preparations to conduct OMB Circular A-123 reviews
Deputy Secretary assigned the offices of
the Chief Information Officer and the           Reactivated Property Boards of Review
                                                -- Re-establish property boards of review
Chief Financial Officer and Assistant
Secretary for Administration                    Improved Management of Laptops and Recovery Procedures
responsibility for coordinating a               -- Consolidate management of headquarters laptops
Department-wide corrective action plan          -- Standardize laptop recovery procedures in the regional
to address lax management of personal             offices
property and protect sensitive
information. Census has been implementing the Department-wide corrective action plan
and has also initiated corrective actions of its own. Increased management efforts have
resulted in the recovery of about 120 laptops at headquarters and the regional offices
since September 2006.

Additional improvements are needed to strengthen internal controls

Despite the actions already taken, Census needs to further strengthen internal controls
over its accountable property by doing the following:

    •   Transactions should be recorded promptly. (See page 8.) Our review found
        the property management system was not always current because transactions
        involving property were often not recorded in APMS promptly. We recommend
        that the Census Bureau director take appropriate action to ensure that transactions
        are promptly recorded into APMS; all accountable property on hand at the time
        of an inventory is recorded into APMS; the backlog of Personal Property Control
        forms (CD-50s) is eliminated; and equipment no longer in use is properly and
        promptly excessed.

    •   Execution of inventory procedures needs improvement. (See page 10.)
        Inventories conducted at headquarters and in regional offices should be
        performed effectively and efficiently. We found that regional offices did not
        always use a sweeper (the member of the inventory team responsible for ensuring
        that all items are scanned and marked as inventoried) during their inventories,
        and headquarters also encountered difficulties in performing its inventories. We
        recommend that the Census Bureau director take appropriate action to ensure that
        guidance on conducting inventories which emphasizes the segregation of duties
        is issued.

    •   Property management policies and inventory procedures need to be
        consolidated. (See page 11.) Guidance on conducting inventories, recovering
        laptops, and excessing equipment is found in a number of different



                                                ii
U.S. Department of Commerce                                    Audit Report No. IG-18387-0001
Office of Inspector General                                                    September 2007

        memorandums issued over many years. To ensure roles and responsibilities of
        property management officials are clear, we recommend that the Census Bureau
        director take appropriate action to ensure that the internal policies and procedures
        for handling accountable property are consolidated into a cohesive guiding
        document that is routinely updated and readily accessible.

    •   Property boards of review need to be convened as necessary to ensure that
        no future backlog of cases accumulates. (See page 11.) Census reinstated
        property boards of review to address a backlog of about 800 missing, lost, or
        stolen property items. In addition to eliminating its backlog of cases, Census
        stated that new cases resulting from its April/May 2007 inventory were being
        reviewed. We recommend that property boards of review are convened as
        necessary to ensure that not future backlog of cases accumulates.

    •   Property management officer’s responsibilities should be evaluated. (See
        page 11.) Although the large volume and value of its geographically-dispersed
        property poses a significant control challenge for Census, the bureau does not
        have a full-time property management officer. We recommend that the Census
        Bureau director take appropriate action to ensure that the current responsibilities
        of the property management officer are assessed to determine whether to create a
        full-time position solely dedicated to property management.

In its response to our draft report, Census agreed with four of the five OIG
recommendations and stated that it has already taken or initiated corrective actions to
address those recommendations. Census disagreed with the draft recommendation that
called for the property value of items to be considered in the elimination of the backlog of
property boards of review (PBR) cases. However, the Bureau’s establishment of PBRs to
eliminate its backlog of cases and its current procedure to convene PBRs as property is
reported as lost, missing, or stolen is consistent with the intent of our recommendation
that the backlog of PBR cases be eliminated. We modified this recommendation to reflect
recent efforts to address the backlog and remove property value as a consideration in
convening PBRs.




                                            iii
U.S. Department of Commerce                                            Audit Report No. IG-18387-0001
Office of Inspector General                                                            September 2007

                                   INTRODUCTION

The May 2006 Department of Veterans Affairs announcement that computer equipment
containing the personal information of approximately 26.5 million veterans and active
duty members of the military had been stolen from the home of a VA employee ignited
government-wide concern about data breaches at federal agencies.

In a memo dated September 14, 2006, the Secretary of Commerce requested the
Commerce Inspector General to determine the extent of problems protecting sensitive
personal information at the U.S. Census Bureau and to assess that bureau’s property
management policies and practices. The Office of Inspector General’s Office of Systems
Evaluation is issuing a separate report on its review of the bureau’s efforts to improve
information technology security and protect sensitive personal information. This report
from OIG’s Office of Audits assesses the bureau’s property management policies and
practices.

How Census Manages Accountable Property

Census maintains significant accountable property at its headquarters in Suitland,
Maryland, in 12 regional offices around the country, and at a processing center in
Jeffersonville, Indiana. As of March 8, 2007, the bureau’s Automated Property
Management System (APMS) reported that Census owned about 42,000 pieces of
accountable property including laptop computers, personal computers, photocopy
machines, and video cameras valued at approximately $188 million.

The Census Bureau’s Policies and Procedures Manual (Chapter K-9, dated
September 10, 2001), defines accountable property as (1) having a cost of $5,000 or
more, having a life expectancy of 2 years or more, and retaining its identity during use, or
(2) being a sensitive property item. Sensitive property is property that converts easily to
personal use and has a high potential for theft. All accountable property owned by the
bureau must be tracked in APMS.


  Census                                Associate Director for Field
 Property                                       Operations                        12 Regional Offices
Management
                                                                              Administrative and Customer
                                                                                  Services Division
                                          Associate Director for
    Office of the Director               Administration and Chief
                                            Financial Officer                     Administrative and
                                                                              Management Systems Division


                                                                                LAN Technology Support
                                           Associate Director for                      Office
                                        Information Technology and
                                         Chief Information Officer
                                                                               Technologies Management
                                                                                        Office



                                                                                     Source: OIG/Office of Audits




                                               1
U.S. Department of Commerce                                    Audit Report No. IG-18387-0001
Office of Inspector General                                                    September 2007

Within Census, responsibilities for property management are divided as follows:

   •   The Office of the Chief Financial Officer’s Administrative and Customer Services
       Division (ACSD) manages APMS and physical inventories of accountable
       property. The Administrative and Management Systems Division programs,
       maintains, and updates APMS. The bureau’s property management officer is the
       assistant chief of ACSD, and the bureau’s property accountability officer is the
       chief of the Property, Records and Transportation Management Branch.

   •   Field Division, which reports to the associate director for field operations, is
       responsible for all laptops in the regional offices. Headquarters division chiefs and
       the directors/managers of the regional offices and field offices serve as the
       bureau’s property custodians.

   •   Within the Chief Information Officer’s office, the Local Area Network
       Technology Support Office is responsible for purchasing and maintaining
       personal computers, monitors and laptops for headquarters and the National
       Processing Center in Jeffersonville, Indiana. The Technologies Management
       Office (TMO) is responsible for the acquisition and distribution of IT equipment
       for field representatives in the regions.

   •   All Census personnel are responsible for the proper use, care, and protection of
       personal property in their possession, custody, or control. Employees are also
       required to report immediately to appropriate officials any personal property that
       is out of service, lost, or missing.

Commerce Investigates Lost Laptops and Compromised Sensitive Personal Information

Between June and September 2006, the Department received a Freedom of Information
Act request and two congressional requests regarding the compromise of sensitive
personal information and the loss of laptops. On September 21, 2006, Commerce issued a
statement describing Department-wide loss of 1,138 laptops (249 containing personally
identifiable information) and 297 incidents involving the compromise of personally
identifiable information. The bulk of the lost laptops (672 since January 2001) and
personally identifiable information incidents (291 since January 2003) occurred at the
Census Bureau. Of the 672 laptops missing from Census, 342 (51 percent) belonged to
field offices and 330 (49 percent) belonged to headquarters.

The Deputy Secretary of Commerce instructed a team led by his senior advisor to identify
the scope of the loss of sensitive personal information, assess the adequacy of data
security on the information that was lost, and determine whether it was possible for
Census to learn the identities of and notify any persons whose sensitive personal
information was lost. That investigation was completed on October 3, 2006. In a
memorandum detailing the team’s findings, the Deputy Secretary’s senior advisor stated
the bureau’s reported instances of lost, stolen, or missing electronic equipment and paper
records were as accurate as possible given the bureau’s reliance on self-reported data and
existing weaknesses in the personal property inventory management system. The


                                            2
U.S. Department of Commerce                                   Audit Report No. IG-18387-0001
Office of Inspector General                                                   September 2007

memorandum also reported that someone with only moderate skill could gain access to
sensitive information on the laptops and passwords on handhelds did not comply with
Commerce policy. In addition, the memorandum noted that while Census was able to
identify and notify all households whose data were missing on handheld devices, the
bureau was not able to identify the individuals or households whose data were on missing
laptops and thumb drives.

Department and Bureau Initiate Actions to Address Weaknesses in Internal Controls

In an October 3, 2006 memorandum, the Deputy Secretary tasked the Chief Financial
Officer and Assistant Secretary for Administration and Chief Information Officer with
developing and coordinating an aggressive Department-wide corrective action plan to
address lax management of personal property and protect sensitive information. They
were directed to report on this issue weekly to the Deputy Secretary and monthly to the
Secretary. The Department is continuing to track Census’s progress in strengthening its
internal controls over accountable property by monitoring the bureau’s efforts to
implement the Department-wide plan.

In addition to implementing the Department-wide plan, the Census Bureau has initiated
corrective actions of its own. Increased management attention and aggressive efforts by
Census property management officials have resulted in the recovery of about 120 laptops
at headquarters and the regions since September 2006. Census has also conducted regular
property management seminars since January 2007 to educate bureau personnel. The
seminars emphasize that all bureau staff are responsible for managing accountable
property and explain the roles of property management officials.




                                            3
U.S. Department of Commerce                                      Audit Report No. IG-18387-0001
Office of Inspector General                                                      September 2007

                OBJECTIVES, SCOPE, AND METHODOLOGY

This review was conducted in response to a September 14, 2006, memorandum from the
Secretary of Commerce requesting that the Inspector General assess personal property
management and policies at the Census Bureau. The objective of this review was to
determine the effectiveness of internal controls over accountable property at the bureau.
We did not seek to test the accuracy of Census’s reported numbers of missing laptops and
other accountable property. We examined Census reports on missing property but did not
validate their accuracy.

We reviewed Census Bureau’s policies and procedures and assessed internal controls
over accountable personal property. Our emphasis was on the missing/lost/stolen laptops
reported to Congress for the period 2001 to 2006. We identified the weaknesses that
existed during the time the laptops went missing and the corrective actions that had been
taken or were planned, and determined which weaknesses still remained. We examined
internal controls such as physical control over vulnerable assets, segregation of duties,
and execution, recording, and documentation of transactions and events.

We met with Census officials and their staff at their headquarters in Suitland, Maryland.
These officials included the chief and assistant chief of ACSD, the chief of the Field
Division, the chief information officer, the chief of Technologies Management Office,
and the former chief of the Property Records and Transportation Management Branch of
ACSD. We also interviewed the chief of Management Services of the Administration and
Management Services Division by telephone. In addition, we discussed Department-wide
efforts to strengthen internal controls over accountable personal property with the acting
director of the Department’s Office of Administrative Services and his staff who are
taking the lead to improve property management across the Department.

We judgmentally selected 3 of the 12 regional offices (Dallas, Detroit, and New York) to
observe the conduct of inventories and review internal property controls. We
judgmentally selected 7 additional regional offices (Atlanta, Boston, Charlotte,
Kansas City [Kansas], Philadelphia, Los Angeles, and Seattle) and discussed their
inventory practices and results by telephone. We also observed inventory being
conducted at Census headquarters, and examined previous inventory results.

We performed limited tests of computer-generated data for the audit. We did not verify
the reliability of data included in APMS. Our tests of computer generated data were
limited to ensuring that such data was sufficiently reliable to satisfy our audit objective.
Specifically, we confirmed that selected property located at regional offices and
maintained by field representatives was reflected on APMS property lists.

We reviewed compliance with applicable provisions of pertinent laws and regulations
including the Federal Managers’ Financial Integrity Act (FMFIA) of 1982; GAO
Standards for Internal Control in the Federal Government; the Department of Commerce
Personal Property Management Manual (which implements portions of the General




                                              4
U.S. Department of Commerce                                   Audit Report No. IG-18387-0001
Office of Inspector General                                                   September 2007

Services Administration’s Federal Management Regulation1 that pertain to the
acquisition, management, utilization, and disposal of personal property); the Bureau of
the Census Policies and Procedures Manual, Chapter K-9; and the Bureau of the Census
Regional Office Administrative Memorandum No. 2006-30.

The review was conducted under the authority of the Inspector General Act of 1978, as
amended, and Department Organization Order 10-13, dated August 31, 2006. We
conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit
objectives. We performed our audit work from October 2006 to May 2007.




1
    Formerly the Federal Property Management Regulation



                                                   5
U.S. Department of Commerce                                        Audit Report No. IG-18387-0001
Office of Inspector General                                                        September 2007



                        FINDINGS AND RECOMMENDATIONS

Census Has More to Do to Improve and Strengthen Accountable Property Internal
Controls

When our audit began, corrective actions were already being initiated to address
weaknesses in Census Bureau internal controls relating to personal property management.
Our review found that while the bureau has made considerable progress in strengthening
its internal controls, additional improvements are needed.

A. Weaknesses in Personal Property Management

From January 2001 until September 2006, the time period for which the bureau reported
672 lost/missing/stolen laptops, Census’s personal property management suffered from a
number of weaknesses, including inadequate attention to property management, inactive
property boards of review, and inadequate procedures for the recovery of laptops.

We learned during our review that                     Weaknesses in Census Bureau Personal
during this period, inadequate                                    Property Management
attention had been paid to property
management. Although the                    Inadequate Attention to Property Management
                                            — Inventory results were not consolidated and analyzed
Administrative and Customer Services        — Census does not have a full-time property management officer
Division was provided with physical
inventories for headquarters divisions      Inactive Property Boards of Review
and regional offices, results were not      —Property review boards were discontinued in the 1990s reportedly
consolidated or assessed to determine       because it wasn’t clear how they should be implemented
overall trends. Also, ACSD officials        Inadequate Procedures for Recovery of Laptops
could not identify any Census reviews       —Census officials stated that the recovery of lost/missing/stolen
of missing property or initiatives to       laptops had not been a priority
address problems in missing personal        —Until media reports raised concerns in 2006, recovery procedures
property conducted prior to the fall of     for regional offices had not been updated since June 2000
2006. Finally, despite the significant
amount of accountable property managed by Census, much of which is geographically
dispersed, the bureau does not have a full-time property management officer.

Another problem lay in the fact that Census had not conducted property boards of review
for lost laptops from headquarters and regional offices since the 1990s and a backlog of
cases to be reviewed had built up. The Census Bureau’s Policies and Procedures Manual
requires the property management officer to establish or convene a property board of
review in all cases of missing, stolen, or neglected property. We asked specifically why
the review boards had been discontinued. The chief of the ACSD told us they didn’t
know how to organize and run them, so they eventually just stopped holding the sessions.

A final problem area involved the adequacy of procedures for the recovery of laptops.
Census officials told us during our review that recovering equipment had not been a
priority because the bureau was more focused on performing surveys than finding lost or


                                                6
U.S. Department of Commerce                                       Audit Report No. IG-18387-0001
Office of Inspector General                                                       September 2007

stolen laptop computers. At the end of October 2006, Census implemented
comprehensive procedures for the regional offices to use for recovering laptops. These
procedures were more detailed than the previous ones, which did not address certain
scenarios such as when regional offices are unable to contact field staff, or employee
absence or death. Census could not provide us with any comprehensive headquarters
laptop recovery procedures that were in existence prior to the Congressional and FOIA
requests.

B. Corrective actions already implemented or planned by Census

Census has already implemented or
planned a number of corrective actions to             Corrective Actions to Address Weaknesses
address its weaknesses in personal
                                                 Increased Attention to Property Management
property management, including the               -- Emphasis on personal property management in performance
following:                                          plans
                                                 -- Preparations to conduct OMB Circular A-123 reviews
   •   Emphasizing property
                                             Reactivated Property Boards of Review
       management in performance             -- Re-establish property boards of review
       plans. Census is placing additional
       emphasis on personal property         Improved Management of Laptops and Recovery Procedures
       accountability by including           -- Consolidate management of headquarters laptops
       property management as a critical     -- Standardize laptop recovery procedures in the regional
                                               offices
       element in the performance plans
       of property management officials. Specifically, the chief financial officer,
       property management officer, property accountability officer and property
       custodians were each assigned a weighted value for property management in their
       respective performance plans. For example, the property management officer was
       assigned a weighted value of 50 percent, and the property accountability officer
       was assigned a value of 25 percent.

   •   Preparing to conduct Office of Management and Budget Circular A-123
       internal control review. Census is planning to conduct an OMB Circular A-123
       internal control review of personal property, to be completed by September
       30, 2007. The A-123 review will provide guidance to managers on improving
       accountability and effectiveness of operations by establishing, assessing,
       correcting, and reporting on internal controls.

   •   Reestablishing property boards of review. Census has assembled four property
       boards of review to assess circumstances involving the loss, theft, damage, or
       destruction of accountable government property. By February 5, 2007, Census
       had reviewed and made determinations about 250 items. According to the
       assistant chief of ACSD, as of March 23, 2007, there was a backlog of about 400
       unresolved missing, lost, or stolen laptops. We were also told there were
       approximately 400 missing, lost, or stolen non-laptop property items to be
       reviewed. (This backlog is the result of Census discontinuing property boards of
       review during the 1990s.)



                                             7
U.S. Department of Commerce                                      Audit Report No. IG-18387-0001
Office of Inspector General                                                      September 2007

     •   Consolidating management of laptops. The Local Area Network Technology
         Support Office within the Office of the Chief Information Officer has assumed
         ownership of current and new laptops assigned to personnel at headquarters and
         the processing center in Jeffersonville, Indiana. The number of laptops at Census
         headquarters has been reduced from about 1800 to a pool of 500 to 600 in a new
         short-term laptop loaner program. Laptops not needed for the loaner program will
         either be excessed or distributed for use in the regional offices. Reducing the
         number and restricting availability of laptops should reduce the risk of loss or
         theft.

     •   Standardizing laptop recovery procedures in the regional offices. We verified
         that Census has standardized and documented the laptop recovery process to
         address inconsistencies among the regional offices. The document Return of
         Government Data Sensitive Property, distributed in October 2006, outlines
         procedures the regional offices should follow to recover a laptop or other sensitive
         property when employees resign, retire, or are terminated.

Increased management attention and more aggressive recovery efforts have resulted in
the recovery of about 120 laptops at headquarters and the regions since September 2006.

C.       Additional improvements needed to strengthen internal controls

Despite the lengthy list of improvements Census has implemented in the past year, we
believe a number of additional actions are necessary to ensure that progress continues and
prevent property accountability problems from arising in the future.

Transactions should be recorded promptly

The Department of Commerce Personal Property Management Manual, dated
March 1995, Section 4.702, requires all transactions affecting personal property accounts
and records to be recorded on appropriate documents and posted promptly. This is
essential to ensure the property management system shows current numbers and locations
of property. Our review found that items were often not recorded in APMS for lengthy
periods of time and as a result, the property management system was not always current.
For example, we found:

     •   In 2005 in the Detroit regional office, it took 36 to 72 days to prepare receiving
         reports and 72 to 86 days to enter information into APMS for 3 direct shipments
         of 21 computers. At the time of our review, the person responsible no longer
         worked in the office, so we could not obtain an explanation for the delays.

         We also found that 121 laptops that had been sold but later returned by the
         purchaser in August 2005 were not re-recorded in inventory until
         November 2006. We learned there had been a complete turnover in the
         information technology staff in late 2005. The new employees had not known
         what to do with the returned laptops.



                                              8
U.S. Department of Commerce                                       Audit Report No. IG-18387-0001
Office of Inspector General                                                       September 2007

       During the Detroit regional office inventory, some items contained in APMS were
       identified as missing but were not. We were told that this problem resulted, in
       part, because the Detroit regional office transferred the equipment and submitted
       the documentation to Field Division in headquarters for approval. The Field
       Division did not always forward it to ACSD for input into APMS. As a result,
       APMS indicated that the Detroit regional office had property which had actually
       been transferred. The Dallas regional office had a similar issue. We were told that
       the Field Division now hand carries the approved regional office requests to
       ACSD for signature. ACSD then inputs the transaction into APMS.

   •   The         regional office had personal property scheduled to be excessed in
       August of 2005 that was still in the office more than a year later when it was time
       to conduct the November 2006 inventory. When it became evident that the
       personal property would be in the office at inventory time, it should have been
       recorded in APMS, but was not.




                                                                   In November 2006, the Census Bureau’s
                                                                            regional office was continuing to
                                                                   store accountable property that had been
                                                                   scheduled to be excessed in August 2005.




                   U.S. Census Bureau,          regional office

   •   Census continues to have backlogs of unprocessed CD-50s, the document used to
       transfer or surplus equipment. Census eliminated a backlog of approximately
       3,000 outstanding CD-50s that were created before December 1, 2006. However,
       a recent move of certain Census divisions into the new headquarters building and
       the necessary adjustments to be made in APMS resulted in another backlog. As of
       March 7, 2007, there was a backlog of 450 CD-50s created since
       December 1, 2006.




                                            9
U.S. Department of Commerce                                                  Audit Report No. IG-18387-0001
Office of Inspector General                                                                  September 2007

Execution of inventory procedures needs improvement

During the inventories of accountable property conducted in August 2006 at headquarters
and between October 2006 and December 2006 at the regional offices, several problems
emerged.

Regional Office Administrative Memorandum No. 2006-30 was developed by the Census
Bureau to provide guidance to regional offices on how best to conduct inventories. The
memorandum stated that inventory teams should consist of three to four employees,
including a “sweeper,” the member of the inventory team responsible for ensuring that all
items are scanned and marked as inventoried. However, we learned that the majority of
the inventory at the Kansas City, Kansas, regional office was conducted by only one
individual. We were told this happened because the office did not have enough staff to
perform the inventory as required. We also were informed that inventories at the Seattle
and Charlotte regional offices were conducted without a sweeper. The Detroit regional
office used a sweeper some but not all of the time, and found during the inventory
reconciliation process that it had missed items during its inventory.

                                                                  Census headquarters also encountered
                                                                  difficulties performing its inventory.
                                                                  The assistant chief of ACSD said the
                                                                  division did not foresee complications
                                                                  resulting from performing the
                                                                  inventory during the middle of the
                                                                  move to the new Census building and
                                                                  the associated transfers of equipment.
                                                                  In addition, a reorganization of four
                                                                  divisions into five took place during
                                                                  the inventory. Other factors also
                                                                  contributed to problems, such as some
                                                                  participants being unfamiliar with the
                                                                  inventory process, delays in sharing
                     U.S. Census Bureau Detroit regional office
                                                                  results with divisions, and staff
 Above, a storage room full of equipment no longer in             shortages during the inventory.
 use which has been identified as excess and is waiting
 to be removed from the premises at the Detroit      In March 2007, Census discontinued
 regional office.                                    the inventory of accountable property
at headquarters that had been underway since August 2006. Bureau property management
officials believed the difficulties encountered during the inventory had compromised the
accuracy and completeness of the results.

A new headquarters inventory process was started in April 2007 with the goal to have
100 percent inventory and certification completed by May 31, 2007. The bureau
incorporated lessons learned into this inventory. Inventories were done by floor as
opposed to by division because the layout of office space made this most practical.
Census assured us that future inventories will not take place during moves and transfers
of property, and reorganizations will not take place during inventories. Census also noted


                                                         10
U.S. Department of Commerce                                   Audit Report No. IG-18387-0001
Office of Inspector General                                                   September 2007

that it will hold training seminars to ensure all participants involved in the inventory
process are adequately prepared at the start. Property liaisons will be assigned in each
division to coordinate inventories with ACSD and assure all property accountability and
transfer forms are completed. We believe these decisions should be documented in the
bureau’s policies and procedures to make sure future inventories are conducted
effectively and efficiently.

Property management policies and inventory procedures need to be consolidated

The Census Bureau’s existing guidance on conducting inventories, recovering laptops,
and excessing equipment is contained in a number of different memorandums and
directives that have been issued over several years. Census should consolidate all this
information into one cohesive guiding document and routinely update it. It would also be
advisable to post the consolidated guidance document on an internally accessible web site
that is user-friendly and routinely updated.

Property boards of review need to be convened as necessary to ensure that no future
backlog of cases accumulates

Census had not conducted property boards of review for lost laptops since the 1990s,
resulting in a backlog of cases. Property boards of review (PBR) are assembled to assess
the circumstances surrounding the loss, theft, damage or destruction of accountable
property. As of February 5, 2007, Census faced a backlog of approximately 800 cases
remaining before the property boards of review. In its September 24, 2007 response to
our draft report, Census noted that it had addressed the backlog of cases needing review
by convening six PBRs in fiscal year 2007. According to the property management
officer, the recent PBRs eliminated the existing backlog of cases and new cases resulting
from the bureau’s April/May 2007 inventory were in the process of being reviewed.
Census stated that it now convenes PBRs on an as-needed basis to review cases of
property reported as lost, missing, or stolen. We believe that Census should be able to
avoid the accumulation of a future backlog of cases by following such a process.

Property management officer’s responsibilities should be evaluated

Unlike some other Commerce bureaus, Census does not have a dedicated or full-time
property management officer. Census should evaluate the various responsibilities
assigned to the individual who currently serves as the property management officer and
determine whether to restructure this position and dedicate it solely to property
management. The assistant chief of ACSD, who serves as Census’s property management
officer, told us he has spent about 95 percent of his time on property management issues
since he assumed the position in September 2006. However, the current performance plan
for the position of assistant division chief has only a 50 percent weighting allocated for
the property management officer element and also lists conference and travel
management services as other major duties.




                                           11
U.S. Department of Commerce                                       Audit Report No. IG-18387-0001
Office of Inspector General                                                       September 2007

D. Recommendations

We recommend that the Census Bureau director take appropriate action to ensure the
following with respect to personal property management at the bureau:

   (1) Transactions are promptly recorded in APMS; all accountable property on hand at
       the time of inventory is recorded in APMS; the backlog of Personal Property
       Control forms (CD-50s) is eliminated; and equipment no longer in use is properly
       and promptly excessed.
   (2) Guidance on conducting inventories which emphasizes the importance of
       segregation of duties is issued.
   (3) Internal policies and procedures for handling accountable property are
       consolidated into a cohesive guiding document that is routinely updated and
       readily accessible.
   (4) Property boards of review are convened as necessary so that no future backlog of
       cases accumulates.
   (5) The current responsibilities of the property management officer are assessed to
       determine whether to create a full-time position solely dedicated to property
       management.

E. Census Response

On September 24, 2007, we received the Census Bureau response to our August 23, 2007
draft report. The Census Bureau agreed with four of the five recommendations contained
in the draft report and stated that it had already taken or initiation actions to address those
recommendations. Census disagreed with our draft recommendation that property value
be taken into consideration for eliminating the backlog of property boards of review
(PBR) cases, stating that value plays no role in determining the sensitive nature of a
property item. Census noted that it convened six PBRs this fiscal year which eliminated
the backlog and that the current procedure is to convene PBRs on an as-needed basis to
review cases of property reported as lost, missing, or stolen.

F. OIG Comments

We believe that actions taken and planned are responsive to our recommendations. Also,
we acknowledge the Census Bureau’s commitment to address our findings and
recommendations. After considering the Bureau’s response, we modified our
recommendation relating to property boards of review to reflect Census efforts to address
the backlog of cases and remove property value as a consideration in convening PBRs.




                                              12
U.S. Department of Commerce                Audit Report No. IG-18387-0001
Office of Inspector General                                September 2007



                              APPENDIX I




                                  13
U.S. Department of Commerce        Audit Report No. IG-18387-0001
Office of Inspector General                        September 2007




                              14
U.S. Department of Commerce        Audit Report No. IG-18387-0001
Office of Inspector General                        September 2007




                              15
